Department of Homeland Security
   Ofﬁce of Inspector General

      Information Technology Management Letter 

                     for the FY 2008 

         Transportation Security Administration 

               Financial Statement Audit 

                       (Redacted)





 Notice: The Department of Homeland Security, Office of Inspector General has redacted the report for public
 release. A review under the Freedom of Information Act will be conducted upon request.




OIG-09-62                                                                                         April 2009
                                                                        Office of Inspector General

                                                                        U.S. Department of
                                                                        Homeland Security
                                                                        Washington, DC 20528




                                   April 23, 2009

                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to
the Inspector General Act of 1978. This is one of a series of audit, inspection, and special
reports prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report presents the information technology (IT) management letter for the FY 2008
Transportation Security Administration (TSA) financial statement audit as of September 30,
2008. It contains observations and recommendations related to information technology
internal control that were not required to be reported in the financial statement audit report
(OIG-09-09, November 2008) and represents the separate restricted distribution report
mentioned in that report. The independent accounting firm KPMG LLP (KPMG) performed
the audit of TSA’s FY 2008 balance sheet and prepared this IT management letter. KPMG is
responsible for the attached IT management letter dated March 6, 2009, and the conclusions
expressed in it. We do not express opinions on TSA’s financial statements or internal control
or make conclusions on compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We trust
this report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

                                  KPMG LLP
                                  2001 M Street, NW
                                  Washington, DC 20036




March 6, 2009

Inspector General
U.S. Department of Homeland Security

Chief Information Officer
Transportation Security Administration

Chief Financial Officer
Transportation Security Administration

Ladies and Gentlemen:

We audited the consolidated balance sheet of the U.S. Department of Homeland Security (DHS)
Transportation Security Administration (TSA) as of September 30, 2008. The objective of our
engagement was to express an opinion on the fair presentation of the consolidated balance sheet of TSA.
In connection with our fiscal year 2008 audit, we also considered TSA’s internal controls over financial
reporting, and tested TSA’s compliance with certain provisions of applicable laws, regulations, contracts,
and grant agreements that could have a direct and material effect on the consolidated balance sheet of
TSA.
In connection with our fiscal year (FY) 2008 engagement, we considered TSA’s internal control over
financial reporting by obtaining an understanding of TSA’s internal control, determining whether
internal controls had been placed in operation, assessing control risk, and performing tests of controls in
order to determine our procedures. We limited our internal control testing to those controls necessary to
achieve the objectives described in Government Auditing Standards and Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements. We did not
test all internal controls relevant to operating objectives as broadly defined by the Federal Managers’
Financial Integrity Act of 1982 (FMFIA). The objective of our engagement was not to provide an
opinion on the effectiveness of TSA’s internal control over financial reporting. Accordingly, we do not
express an opinion on the effectiveness of TSA’s internal control over financial reporting. Further, other
matters involving internal control over financial reporting may have been identified and reported had we
been able to perform all procedures necessary to express an opinion on the TSA balance sheet as of
September 30, 2008, and had we been engaged to audit the other FY 2008 financial statements.
A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination of
control deficiencies, that adversely affects TSA’s ability to initiate, authorize, record, process, or report
financial data reliably in accordance with U.S. generally accepted accounting principles such that there
is more than a remote likelihood that a misstatement of TSA’s financial statements that is more than
inconsequential will not be prevented or detected by TSA’s internal control over financial reporting. A
material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be
prevented or detected by the entity’s internal control.


                                     KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                     a member of KPMG International, a Swiss cooperative.
During our audit engagement, we noted certain matters with respect to TSA’s financial systems’
information technology (IT) general controls which we believe contribute to a TSA-level significant
deficiency that is considered a material weakness in IT general and application controls. These matters
are described in the IT General Control Findings by Audit Area section of this letter.
The material weakness and significant deficiency described above are presented in our Independent
Auditors’ Report, dated March 6, 2009. This letter represents the separate restricted distribution report
mentioned in that report.

Although not considered to be material weaknesses, we also noted certain other matters during our audit
engagement which we would like to bring to your attention. These matters are also described in the IT
General Control Findings by Audit Area section of this letter.
The material weakness and other comments described herein have been discussed with the appropriate
members of management, or communicated through a Notice of Finding and Recommendation (NFR),
and is intended For Official Use Only. We aim to use our knowledge of TSA’s organization gained
during our audit engagement to make comments and suggestions that we hope will be useful to you. We
have not considered internal control since the date of our Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. In addition, we have
provided: a description of key TSA financial systems and information technology infrastructure within
the scope of the FY 2008 TSA balance sheet audit in Appendix A; a description of each internal control
finding in Appendix B; and the current year status of the prior year NFRs in Appendix C. Our comments
related to financial management and reporting internal controls have been presented in a separate letter to
the Office of Inspector General and the TSA Chief Financial Officer dated March 6, 2009.

This report is intended solely for the information and use of TSA and DHS management, DHS Office of
Inspector General, OMB, U.S. Government Accountability Office, and the U.S. Congress, and is not
intended to be and should not be used by anyone other than these specified parties.

Very truly yours,
                                Department of Homeland Security 

                             Transportation Security Administration 

                            Information Technology Management Letter
                                       September 30, 2008

                 INFORMATION TECHNOLOGY MANAGEMENT LETTER 


                                      TABLE OF CONTENTS 

                                                                                               Page


Objective, Scope and Approach                                                                   1


Summary of Findings and Recommendations                                                         2


IT General Control Findings by Audit Area                                                       3


 Findings Contributing to a Material Weakness in IT                                             3


    Application Software Development and Change Controls                                        3


 Other Findings in IT General Controls                                                          4


    Access Controls                                                                             4


    Entity-Wide Security Program Planning and Management                                        4


    Service Continuity                                                                          5


Application Control Findings                                                                    7


Management Comments and OIG Responses                                                           7


                                           APPENDICES


    Appendix                                       Subject
                                                    	                                         Page


                      Description of Key TSA Financial Systems and IT Infrastructure within
        A	                                                                                      8
                      the Scope of the FY 2008 TSA Financial Statement Audit



        B	            FY 2008 Notice of IT Findings and Recommendations at TSA                  10




                      Status of Prior Year Notices of Findings and Recommendations and
        C	            Comparison to Current Year Notices of Findings and Recommendations        22

                      at TSA




        D             Management Comments 	                                                     30

                                   Department of Homeland Security 

                                Transportation Security Administration 

                               Information Technology Management Letter
                                          September 30, 2008



                               OBJECTIVE, SCOPE AND APPROACH

We were engaged to perform an audit of the Transportation Security Administration’s (TSA) Information
Technology (IT) general controls in support of the fiscal year (FY) 2008 TSA balance sheet audit
engagement. The overall objective of our engagement was to evaluate the effectiveness of IT general
controls of TSA’s financial processing environment and related IT infrastructure as necessary to support
the engagement. The U.S. Coast Guard’s                                hosts key financial applications for
TSA. As such, our audit procedures over information technology (IT) general controls for TSA included
testing of the Coast Guard’s          policies, procedures, and practices, as well as at TSA Headquarters.

The Federal Information System Controls Audit Manual (FISCAM), issued by the Government
Accountability Office (GAO), formed the basis of our audit. The scope of the TSA IT general controls
assessment is described in Appendix A. FISCAM was designed to inform financial auditors about IT
controls and related audit concerns to assist them in planning their audit work and to integrate the work of
auditors with other aspects of the financial audit. FISCAM also provides guidance to IT auditors when
considering the scope and extent of review that generally should be performed when evaluating general
controls and the IT environment of a federal agency. FISCAM defines the following six control functions
to be essential to the effective operation of the general IT controls environment.

�	 Entity-wide security program planning and management (EWS) – Controls that provide a framework
   and continuing cycle of activity for managing risk, developing security policies, assigning
   responsibilities, and monitoring the adequacy of computer-related security controls.
�	 Access control (AC) – Controls that limit and/or monitor access to computer resources (data,
   programs, equipment, and facilities) to protect against unauthorized modification, loss, and disclosure.
�	 Application software development and change control (ASDCC) – Controls that help to prevent the
   implementation of unauthorized programs or modifications to existing programs.
�	 System software (SS) – Controls that limit and monitor access to powerful programs that operate
   computer hardware and secure applications supported by the system.
�	 Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to prevent one individual from controlling key aspects of computer-related operations, thus
   deterring unauthorized actions or access to assets or records.
�	 Service continuity (SC) – Controls that involve procedures for continuing critical operations without
   interruption, or with prompt resumption, when unexpected events occur.

To complement our general IT controls audit, we also performed technical security testing for key
network and system devices, as well as testing over key financial application controls. The technical
security testing was performed both over the Internet and from within select Coast Guard and TSA
facilities, and focused on test, development, and production devices that directly support TSA’s financial
processing and key general support systems.

In addition to testing TSA’s general control environment, we performed application control tests on a
limited number of TSA’s financial systems and applications. The application control testing was
performed to assess the controls that support the financial systems’ internal controls over the input,
processing, and output of financial data and transactions.




                                                     1
   Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                   Department of Homeland Security 

                                Transportation Security Administration 

                               Information Technology Management Letter
                                          September 30, 2008


�	 Application Controls (APC) - Application controls are the structure, policies, and procedures that
   apply to separate, individual application systems, such as accounts payable, inventory, payroll, grants,
   or loans.


                     SUMMARY OF FINDINGS AND RECOMMENDATIONS

During fiscal year (FY) 2008, TSA took corrective action to address prior year IT control weaknesses.
For example, TSA made improvements in testing disaster recovery procedures, reviewing audit logs, and
implementing emergency response training for all personnel with data center access. However, during
FY 2008, we continued to identify IT general control weaknesses that impact TSA’s financial data. The
most significant weaknesses from a financial statement audit perspective related to controls over the
termination of the contract with the software support vendor, the design and implementation of
configuration management policies and procedures, and the development, implementation, and tracking
of scripts at Coast Guard’s           . Collectively, the IT control weaknesses limited TSA’s ability to
ensure that critical financial and operational data were maintained in such a manner to ensure
confidentiality, integrity, and availability. In addition, these weaknesses negatively impacted the internal
controls over TSA financial reporting and its operation and we consider them to collectively represent a
material weakness for TSA under standards established by the American Institute of Certified Public
Accountants (AICPA). In addition, based upon the results of our test work, we noted that TSA did not
fully comply with the requirements of the Federal Financial Management Improvement Act (FFMIA).
Of the 15 findings identified during our FY 2008 testing, 13 are repeated findings, either partially or in
whole from the prior year, and 2 are new IT findings. These findings represent weaknesses in four of the
six FISCAM key control areas. Specifically, 1) unverified access controls through the lack of
comprehensive user access privilege re-certifications, 2) entity-wide security program issues involving
civilian and contractor background investigation weaknesses, 3) inadequately designed and operating
change control policies and procedures, and 4) the lack of updated disaster recovery plans which reflect
the current environment identified through testing. These weaknesses may increase the risk that the
confidentiality, integrity, and availability of system controls and TSA financial data could be exploited
thereby compromising the integrity of financial data used by management and reported in TSA’s financial
statements.
While the recommendations made by KPMG should be considered by TSA, it is the ultimate
responsibility of TSA management to determine the most appropriate method(s) for addressing the
weaknesses identified based on their system capabilities and available resources.




                                                     2
   Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                   Department of Homeland Security 

                                Transportation Security Administration 

                               Information Technology Management Letter
                                          September 30, 2008

                      IT GENERAL CONTROL FINDINGS BY AUDIT AREA

Findings Contributing to a Material Weakness in IT 



Conditions: In FY 2008, the following IT and financial system control weaknesses were identified at
TSA and contribute to a TSA-level significant deficiency that is considered a material weakness in IT
general and application controls.


Application software development and change controls – we noted:
    �	 For the data scripts run at Coast Guard’s            procedures over approval, testing, and
       documentation requirements remain in draft form. The                             does not
       consistently include all testing, approval, and implementation documentation for all scripts. In
       addition, Coast Guard does not monitor scripts run in the database through audit logging and has
       not developed a technical solution to monitor who accesses the database through
       to run scripts or review what scripts are run.
    �	 An examination of the data scripts run was conducted with an external, independent organization;
       however, due to the many limitations over scope, the analysis was incomplete. Furthermore, the
       analysis did not properly evaluate scripts as to financial statement impact, including current
       versus prior year effect.
    �	 Policies and procedures over software changes for the key financial applications during the
       development and testing processes include multiple weaknesses over the design as well as the
       implementation.


Recommendations: Unless specifically noted where TSA needs to take specific corrective action, we
recommend that TSA work with the DHS Office of Chief Information Officer (OCIO) to ensure that the
Coast Guard/       complete the following corrective actions:
    �	 Continue to complete and implement the 

                      and 
         Change Control Policy.
    �	 Implement and better document a single, integrated script change control process that includes
       clear lines of authority to Coast Guard financial and IT management personnel, enforced
       responsibilities of all participants in the process, and documentation requirements.
    �	 Continue efforts to complete an in-depth analysis of active scripts, with the following objectives:
       All changes to active scripts and new scripts should be subject to an appropriate software change
       control process to include testing, reviews, and approvals, and all active scripts should be
       reviewed for impact on financial statement balances.
    �	 Develop and implement change control policies and procedures to verify that all software changes
       are approved, tested, documented, tracked, and reviewed prior to deploying the changes into the
       production environment in accordance with DHS Sensitive System Policy Handbook 4300A.




                                                    3
   Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                  Department of Homeland Security 

                               Transportation Security Administration 

                              Information Technology Management Letter
                                         September 30, 2008

Other Findings in IT General Controls 



Although not considered to be a material weakness, we also noted the following other matters related to
IT and financial system control deficiencies during the FY08 TSA audit engagement:


1.	 Access controls – we noted:
    �	 Access review procedures for key financial applications do not include the review of all user
       accounts to ensure that all terminated individuals no longer have active accounts, inactive
       accounts are locked, and privileges associated with each individual are still authorized and
       necessary.
    �	 Security configuration management weaknesses exist on hosts supporting the key financial
       applications and the underlying general support systems.
    �	 Security patch management weaknesses exist on hosts supporting the key financial applications
       and general support systems.
    �	 The computer access agreement and exit clearance procedures for TSA employees have not been
       consistently implemented.


2.	 Entity-wide security program planning and management – we noted:
    �	 The contract between Coast Guard and the support vendor does not include security configuration
       requirements that must be adhered to during the configuration management process. Coast Guard
       terminated the contract in FY 2008; however, during the first half of the fiscal year, the contract
       was still in place and no corrective action had taken place related to the prior year
       recommendation.
    �	 Coast Guard’s policies and procedures have not been implemented to require that a favorably
       adjudicated background investigation be completed for all contractor personnel.
    �	 Background investigations for all civilian Coast Guard employees have not been completed and
       civilian position sensitivity designations have not been determined in accordance with DHS
       guidance.
    �	 There are weaknesses in Specialized Role-based Training for             Individuals with
       Significant Security Responsibilities.
    �	 A risk assessment for the major financial applications has not been completed and the associated
       System Security Plan remains in draft form.
    �	 IT security awareness training has not been completed by all TSA personnel prior to gaining
       access to the major financial applications.


3.	 Service continuity – we noted:
    �	 The Coast Guard              Continuity of Operations Plan (COOP) has not been updated to reflect
       the results of testing and the division Business Continuity Plans have not been finalized. TSA’s
       key financial applications are hosted at

                                                    4
   Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                   Department of Homeland Security 

                                Transportation Security Administration 

                               Information Technology Management Letter
                                          September 30, 2008



Recommendations: Unless specifically noted where TSA needs to take specific corrective action, we
recommend that TSA work with the DHS OCFIO to ensure that the Coast Guard/FINCEN complete the
following corrective actions:


1.	 For access controls:
    �	 Actively monitor the use of and changes related to operating systems and other sensitive utility
       software and hardware. Additionally, perform corrective actions on the specific patch and
       configuration weaknesses identified.
    �	 Implement the Employee Exit Clearance Procedures by completing, certifying, and maintaining
       all forms required during the exit process for employees and contractors (TSA alone needs to take
       this corrective action).
    �	 Implement the IT Security Policy Handbook by verifying that all TSA employees and contractors
       sign a computer access agreement prior to being granted system access (TSA alone needs to take
       this corrective action).
    �	 Update the quarterly review process to include procedures surrounding the recertification of
       accounts with elevated privileges on the Unit Approved Plan. In addition, the recertification
       process should be documented, include supervisor written approval and occur on an at least
       annual basis (TSA alone needs to take this corrective action).
    �	 Develop and implement procedures to require a periodic review by supervisors of all financial
       application and database user accounts and their associated privileges. These procedures should
       include steps to verify that all terminated individuals no longer have active accounts, that inactive
       accounts are locked and that privileges associated with each individual are still authorized and
       necessary.
    �	 Update procedures to ensure that a documented and approved access authorization request is
       completed for each individual prior to granting him/her access to the key financial applications or
       databases.
2.	 For entity-wide security program planning and management:
    �	 Create and implement contractor background investigation policies and procedures in order to
       establish requirements and ensure compliance with DHS Sensitive System Policy Handbook
       4300A. This includes the verification that all contracts issued by the Coast Guard include the
       appropriate Coast Guard position sensitivity designation requirements for contracted personnel.
    �	 Perform initial background investigations and re-investigations for civilian employees in
       accordance with position sensitivity designations at no less than the Moderate level as required by
       DHS directives. In addition, conduct civilian background re-investigations every ten (10) years,
       as required by DHS directives, to ensure that each employee has a favorably adjudicated and valid
       Minimum Background Investigation (MBI).
    �	 Finalize and implement the Role-Based Training which would require personnel with significant
       information security responsibilities to complete specialized role-based training on an annual
       basis. Develop and deploy this specialized role-based training and implement the use of the
       Training Management Tool in order to track and verify specialized role-based training
       requirements compliance.

                                                     5
   Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                   Department of Homeland Security 

                                Transportation Security Administration 

                               Information Technology Management Letter
                                          September 30, 2008


    �	 Finalize and implement the C&A Package for the key financial systems in accordance with DHS
       and National Institute of Standards and Technology (NIST) guidance.
    �	 Enforce mandatory completion of security awareness training by holding groups responsible and
       accountable as a performance measure for monitoring the training of their employees (TSA alone
       needs to take this corrective action).


3.	 For service continuity:
    �	 Update the COOP to include the results of its testing and finalize the applicable supporting 

       business continuity plans. 


Cause/Effect: Many of these weaknesses were inherited from the lack of properly designed, detailed, and
consistent guidance over financial system controls to enforce DHS Sensitive System Policy Directive
4300A and NIST guidance. The lack of documented and implemented security configuration
management controls may result in security responsibilities communicated to system developers
improperly as well as the improper implementation and monitoring of system changes by Coast Guard
management. This also increases the risk of unsubstantiated changes as well as changes that may
introduce errors or data integrity issues that are not easily traceable back to the changes. In addition, it
increases the risk of undocumented and unauthorized changes to critical or sensitive information and
systems. This may reduce the reliability of information produced by these systems. In addition,
reasonable assurance should be provided that financial system user access levels are limited and
monitored by both TSA and Coast Guard management for appropriateness and that all user accounts
belong to current employees. This is particularly essential for those user accounts that have been
identified as having elevated privileges. The weaknesses identified within TSA’s access controls
increases the risk that employees and contractors may have access to a system that is outside the realm of
their job responsibilities or that a separated individual, or another person with knowledge of an active
account of a terminated employee, could use the account to alter the data contained within the application
or database. This may also increase the risk that the confidentiality, integrity, and availability of system
controls and the financial data could be exploited thereby compromising the integrity of financial data
used by management and reported in the DHS financial statements. In addition, without proper personnel
security measures in place, such as background investigations, TSA financial data could be
inappropriately manipulated by contract personnel whose intent is to create havoc or inappropriate
financial gain. Lastly, the lack of finalized plans for the recovery of critical          operations and key
TSA financial system data may potentially increase the risk of delayed recovery efforts during a disaster.

Criteria: The Federal Information Security Management Act (FISMA) passed as part of the Electronic
Government Act of 2002, mandates that Federal entities maintain IT security programs in accordance with
OMB and NIST guidance. OMB Circular No. A-130, Management of Federal Information Resources, and
various NIST guidelines describe specific essential criteria for maintaining effective general IT controls. In
addition, OMB Circular No. A-127 prescribes policies and standards for executive departments and agencies
to follow in developing, operating, evaluating, and reporting on financial management systems. FFMIA sets
forth legislation prescribing policies and standards for executive departments and agencies to follow in
developing, operating, evaluating, and reporting on financial management systems. The purpose of FFMIA is
in relevant part: (1) to provide for consistency of accounting by an agency from one fiscal year to the next,
and uniform accounting standards throughout the Federal Government; (2) require Federal financial
management systems to support full disclosure of Federal financial data, including the full costs of Federal
programs and activities; (3) increase the accountability and credibility of federal financial management; (4)

                                                     6
   Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                   Department of Homeland Security 

                                Transportation Security Administration 

                               Information Technology Management Letter
                                          September 30, 2008

improve performance, productivity and efficiency of Federal Government financial management; and (5)
establish financial management systems to support controlling the cost of Federal Government. In closing,
for this year’s IT audit we assessed the DHS component’s compliance with DHS Sensitive System Policy
Directive 4300A.



                               APPLICATION CONTROL FINDINGS


We did not identify any findings in the area of application controls during the fiscal year 2008 TSA audit
engagement.



                       MANAGEMENT COMMENTS AND OIG RESPONSE

We obtained written comments on a draft of this report from the TSA Assistant Administrator and Chief
Financial Officer. Generally, TSA management agreed with all of our findings and recommendations and
they have developed a remediation plan to address them. We have incorporated these comments where
appropriate and included a copy of the comments in Appendix D.

OIG Response

We agree with the steps that TSA’s management is taking to satisfy these recommendations.




                                                    7
   Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                             Appendix A 


                           Department of Homeland Security 

                        Transportation Security Administration

                       Information Technology Management Letter
                                  September 30, 2008




                                  Appendix A

Description of Key TSA Financial Systems and IT Infrastructure
within the Scope of the FY 2008 TSA Financial Statement Audit




                                          8
Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                          Appendix A 


                               Department of Homeland Security 

                            Transportation Security Administration

                           Information Technology Management Letter
                                      September 30, 2008


Below is a description of significant TSA financial management systems and supporting Information
Technology (IT) infrastructure included in the scope of the engagement to perform the financial
statement audit.


Locations of Audit: TSA                in                    and the Coast Guard
                                   . TSA’s financial applications are hosted on the Coast Guard’s IT
platforms.

Key Systems Subject to Audit:
�                                  : Core accounting system that is the principal general ledger for
   recording financial transactions for the Coast Guard.      is hosted at           , the Coast
   Guard’s primary data center. It is a customized version of         Financials.
�                                          : Used to create and post obligations to the core
    accounting system. It allows users to enter funding, create purchase requests, issue procurement
    documents, perform system administration responsibilities, and reconcile weekly program
    element status reports.     is interconnected with the       system and is hosted at         .
�               :           is a customized third party commercial off the shelf (COTS) product
    hosted at           and used for TSA and                                 property management.
              interacts directly with the     module in       Additionally,            is 

    interconnected to the 
     system.




                                                 9
Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                   Appendix B 

                              Department of Homeland Security 

                           Transportation Security Administration

                          Information Technology Management Letter
                                     September 30, 2008




                                      Appendix B 


FY2008 Notice of IT Findings and Recommendations – Transportation 

                      Security Administration





                                            10
   Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                                       Appendix B 

                                       Department of Homeland Security 

                                    Transportation Security Administration

                                   Information Technology Management Letter
                                              September 30, 2008


Notice of Findings and Recommendations – Definition of Risk Ratings**:

The Notices of Findings and Recommendations (NFR) were risk ranked as High, Medium, and Low** based
upon the potential impact that each weakness could have on TSA’s information technology (IT) general control
environment and the integrity of the financial data residing on TSA’s financial systems, and the pervasiveness of
the weakness.

** The risk ratings are intended only to assist management in prioritizing corrective actions, considering
the potential benefit of the corrective action to strengthen the IT general control environment and/or the integrity
of the DHS consolidated financial statements. The risk ratings, used in this context, are not defined by
Government Auditing Standards, issued by the Comptroller General of the United States, or the American
Institute of Certified Public Accountants (AICPA) Professional Standards, and do not necessarily correlate to a
significant deficiency, as defined by the AICPA Standards and reported in our Independent Auditors’ Report on
the TSA balance sheet, dated March 6, 2009.

Correction of some higher risk findings may help mitigate the severity of lower risk findings, and possibly
function as a compensating control. In addition, analysis was conducted collectively on all NFRs to assess
connections between individual NFRs, which when joined together could lead to a control weakness occurring
with more likelihood and/or higher impact potential.

High Risk**: A control weakness that is more serious in nature affecting a broader range of financial IT
systems, or having a more significant impact on the IT general control environment and /or the integrity of the
financial statements as a whole.

Medium Risk**: A control weakness that is less severe in nature, but in conjunction with other IT general
control weaknesses identified, may have a significant impact on the IT general control environment and / or the
integrity of the financial statements as a whole.

Low Risk**: A control weakness minimal in impact to the IT general control environment and / or the integrity
of the financial statements.




                                                        11
      Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                Appendix B 

                           Department of Homeland Security 

                        Transportation Security Administration

                       Information Technology Management Letter
                                  September 30, 2008




           Transportation Security Administration 

    FY2008 Information Technology - Notice of Findings and 

                 Recommendations – Detail 





                                         12
Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                                                                       Appendix B 

                                                      Department of Homeland Security 

                                                   Transportation Security Administration

                                                  Information Technology Management Letter
                                                             September 30, 2008

                                                  Department of Homeland Security

                                               Transportation Security Administration 

                                                   FY2008 Information Technology 

                                          Notice of Findings and Recommendations – Detail 




                                                                                                                                       Repeat    Risk
NFR #                             Condition                                            Recommendation                      New Issue
                                                                                                                                        Issue   Rating*
IT-08-01   The COOP has not been updated to reflect the results        We recommend that TSA monitor                                      X      Low
           of testing and the division business continuity plans       efforts to update the COOP as the result of its
           have not been finalized.                                    testing and finalize the applicable supporting
                                                                       business continuity plans.
IT-08-03   During the first half of the year, the contract with the    We recommend that TSA work with the DHS                           X       High
                      , and             software vendor was still      Chief Information Officer to ensure that Coast
           in place and no corrective action taken had taken           Guard Headquarters completes, in a timely
           place related to the prior year recommendation.             manner, the planned corrective actions of the
           Therefore, the risk of the preexisting condition was        following:
           present for the majority of the year (October 1, 2007       � Coast Guard Headquarters enhance their
           through April 1, 2008).                                          existing Configuration Management/Change
                                                                            Management policies and procedures to
           However due to the Coast Guard decision to terminate             explicitly address security configurations
           the contract with their software vendor, and the Coast           and software patches (e.g., those associated
           Guard Headquarters decision to suspend all SPRs and              with system/application “builds”, service
           SCRs until the instructions are lifted this condition did        packs, and maintenance releases) to better
           not exist beyond the date of these two events.                   ensure compliance with DHS requirements
                                                                            and NIST guidance.
                                                                       � Coast Guard Headquarters and the
                                                                            applicable Coast Guard locations
                                                                            communicate with and educate affected staff
                                                                            regarding these improved policies and
                                                                            procedures.
                                                                       � Coast Guard Headquarters develop,
                                                                            communicate, and implement procedures to
                                                                            periodically review system changes and
                                                                            system baselines.
                                                                         13
                  Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                                                                      Appendix B 

                                                     Department of Homeland Security 

                                                  Transportation Security Administration

                                                 Information Technology Management Letter
                                                            September 30, 2008

                                                                                                                                      Repeat    Risk
NFR #                            Condition                                           Recommendation                       New Issue
                                                                                                                                       Issue   Rating*
IT-08-05   Coast Guard Headquarters has developed but not yet        We recommend that TSA work with the DHS                             X      High
           implemented policies or procedures to require that a      Chief Information Officer to ensure that Coast
           favorably adjudicated background investigation be         Guard Headquarters completes, in a timely
           completed for all contractor personnel.                   manner, the planned corrective actions to create
                                                                     and implement contractor background
                                                                     investigation policies and procedures in order to
                                                                     establish requirements and ensure compliance with
                                                                     DHS Sensitive System Policy Directive 4300A.
                                                                     This includes the verification that all contracts
                                                                     issued by the Coast Guard include the appropriate
                                                                     Coast Guard position sensitivity designation
                                                                     requirements for contracted personnel.
IT-08-06   The Role-Based Training for USCG Information              We recommend that TSA monitor Coast Guard                          X      Medium
           Assurance Professionals Commandant Instruction is         Headquarters’ efforts to complete planned
           still in draft form and has not been fully implemented.   corrective actions to:
                                                                     � Continue efforts to finalize and implement the
                                                                         Role-Based Training for USCG Information
                                                                         Assurance Professionals Commandant
                                                                         Instruction which would require personnel
                                                                         with significant information security
                                                                         responsibilities to complete specialized role-
                                                                         based training on an annual basis.
                                                                     �    Develop and deploy this specialized role-
                                                                          based training throughout the Coast Guard.
                                                                     �    Implement the use of the Training
                                                                          Management Tool in order to track and verify
                                                                          specialized role-based training requirements
                                                                          compliance.




                                                                         14
                  Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                                                                         Appendix B
                                                     Department of Homeland Security
                                                  Transportation Security Administration
                                                 Information Technology Management Letter
                                                            September 30, 2008

                                                                                                                                         Repeat    Risk
NFR #                            Condition                                            Recommendation                         New Issue
                                                                                                                                          Issue   Rating*
IT-08-13   FINCEN is in the process of updating and finalizing        We recommend that TSA monitor that                is                  X      Low
           the C&A Package for the               . The                taking corrective action to finalize and implement
           comprehensive CAS Suite SSP will include the major         the C&A Package for the                in accordance
           subsystems                              , and              with DHS and NIST guidance.
                        and financial supporting applications
                                        and will be used instead of
           an individual SSP for each system. The         also
           identifies the management controls around risk
           assessments, planning, security assessments,        ,
           and systems and services acquisition.
IT-08-15   Of the 669 employees/contractors with current access       We recommend that TSA perform the following                          X      Medium
           to the following TSA’s financial applications:        ,    corrective actions:
                                ; 152 employees/contractors have      � Enforce mandatory completion of Security
           not completed the IT Security Awareness Training.              Awareness Training by holding groups
                                                                          responsible and accountable as a
                                                                          performance measure for monitoring the
                                                                          training of their employees.




                                                                      	
                                                                      � Revoke system access of employees who do
                                                                          not complete the required annual security
                                                                          awareness training before the deadline and
                                                                          until the employees subsequently completes
                                                                          the required training.
IT-08-18   Configuration management weaknesses continue to            We recommend that TSA work with the DHS                              X      Medium
           exist on hosts supporting the       and                    Chief Information Officer to ensure that Coast
                      applications and the .                          Guard’s             completes, in a timely manner,
                                                                      the planned corrective actions of the following:
           Note: See the tables in the NFR for the specific           � Implement the corrective actions noted in
           conditions.                                                    the tables above.
                                                                      	


                                                                      � Implement polices and procedures to ensure
                                                                          that the software builds created by CG are
                                                                          tested, prior to implementation, to ensure that
                                                                          all software security configurations, such as
                                                                          software patches and non-compliant settings,
                                                                          are up to date.


                                                                        15
                  Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                                                                        Appendix B 

                                                     Department of Homeland Security 

                                                  Transportation Security Administration

                                                 Information Technology Management Letter
                                                            September 30, 2008

                                                                                                                                        Repeat    Risk
NFR #                            Condition                                           Recommendation                         New Issue
                                                                                                                                         Issue   Rating*
IT-08-19   Patch management weaknesses continue to exist on          We recommend that TSA work with the DHS                               X     Medium
           hosts supporting the        and                           Chief Information Officer to ensure that Coast
           applications and the .                                    Guard Headquarters’ completes, in a timely
                                                                     manner, the planned corrective actions of the
           Note: See the tables in the NFR for the specific          following:
           conditions.                                               � Implement the corrective actions noted in
                                                                          the NFR.
                                                                     � Implement polices and procedures to ensure
                                                                          that the software builds created by CG are
                                                                          tested, prior to implementation, to ensure that
                                                                          all software security configurations, such as
                                                                          software patches.
IT-08-20   We were unable to obtain 21 1163 Forms and 27 1402        We recommend that TSA perform the following                          X      Medium
           Forms for each sample of 40. Additionally, 2 of the       corrective actions:
           13 1402 Forms received were signed after the forms        � Implement the Employee Exit Clearance
           were requested for audit.                                      Procedures by completing, certifying, and
                                                                          maintaining all forms required during the
           The IT Security Policy Handbook requires all TSA               exit process for employees and contractors.
           personnel including contractors to review and sign the
           TSA Form 1403: Computer Access Agreement.                 �    Implement the IT Security Policy Handbook
                                                                          by verifying that all TSA employees and
           However, we were unable to obtain 7 of the 25, 1403:
                                                                          contractors sign a computer access agreement
           Computer Access Agreements sampled. Of the 18
                                                                          prior to being granted system access.
           forms we obtained, 5 were dated after the sample was
           requested for audit.
IT-08-21   The change control policy has not been fully              We recommend TSA continue to complete and                            X      Medium
           completed and implemented. The United States Coast        implements the following sections of the    ,
           Guard (CG) is responsible for making software                                 Change Control Policy: Build
           changes to the             and            applications,   Selection Process, Software Development Process,
           however, on March 31, 2008, CG HQ terminated its          and Software Testing Process.
           contract with the software vendor/developer for       ,
                 and            , which has hindered TSA’s ability
           to fully complete and implement the              and
                      change control policy.

IT-08-22   Control weaknesses still exist within the design of       We recommend that TSA work with the DHS                              X       High

                                                                         16
                  Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                                                                        Appendix B 

                                                      Department of Homeland Security 

                                                   Transportation Security Administration

                                                  Information Technology Management Letter
                                                             September 30, 2008

                                                                                                                                        Repeat    Risk
NFR #                             Condition                                           Recommendation                        New Issue
                                                                                                                                         Issue   Rating*
           Coast Guard’s Configuration Management policies            Chief Information Officer to ensure that Coast
           and procedures for                             , as well   Guard Headquarters’ completes, in a timely
           as the operating effectiveness of those controls. Our      manner, the planned corrective actions of the
           test work over the design of the change controls           following:
           covered both periods of the change control                 � The              develop, implement,
           environment; however, our testing of operating                  communicate, and enforce procedures
           effectiveness covered only the period of start of the           regarding how changes are to be controlled,
           fiscal year through March 2008, since there were no             documented, tracked, and reviewed as these
           changes made to                                  from           changes progress through testing and into
           April through the remainder of the fiscal year.                 production.
                                                                      � Coast Guard Headquarters develop,
                                                                           implement, communicate, and enforce
                                                                           procedures regarding how change control
                                                                           documentation will be maintained, reviewed,
                                                                           and validated in accordance with DHS
                                                                           Sensitive System Policy Directive 4300A.
IT-08-23   Coast Guard’s controls over the scripting process          TSA does not have the ability to take corrective                    X       High
           remain ineffective. Weaknesses were noted in controls      actions to remediate these control issues on their
           over script implementation, approvals and testing, as      own. Therefore it should be made clear that TSA
           well as active script modification. In addition, Coast     is dependent on the Coast Guard to take the
           Guard has not maintained or developed a population         necessary action. In order for management to
           of scripts run since the inception of      in 2003 nor     assert to any financial statement line items, we
           has it performed a historical analysis of script impact    recommend that TSA work with the DHS Chief
           on the cumulative balances in permanent accounts of        Financial Officer and the DHS Chief Information
           the financial statements. Specifically:                    Officer to ensure that Coast Guard Headquarters'
             � Coast Guard lacks a formal process to distinguish      completes, in a timely manner, the planned
               between the module lead approvers for script           corrective actions to:
               approval requests (Conditions #1 & #2);                � Continue to design, document, implement, and
                                                                           demonstrate the effectiveness of internal
             � The Procedures for Data Scripts do not                      controls associated with the active (current
               specifically state the testing and documentation            and future) scripts.
               requirements for blanket approval scripts and this
                                                                      � Identify and evaluate the historical scripts (all
               policy remains in draft form (Conditions # 3 &
                                                                           those implemented prior to those identified in
               #4);
                                                                           recommendation 1 above) to determine the
             � Coast Guard does not monitor scripts run in the             financial statement impact on cumulative

                                                                        17
                  Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                                                                        Appendix B 

                                                  Department of Homeland Security 

                                               Transportation Security Administration

                                              Information Technology Management Letter
                                                         September 30, 2008

                                                                                                                                        Repeat    Risk
NFR #                         Condition                                             Recommendation                          New Issue
                                                                                                                                         Issue   Rating*
            database through audit logging and has not                 balances in permanent accounts; and develop
            developed a technical solution to monitor who              and maintain supporting procedures related to
            accesses the database through              to              each script.
            run scripts or review what scripts are run             With respect to procedures already in place, TSA
            (Conditions #5 & #6);                                  should work with the DHS Chief Financial Officer
          � The                          does not consistently     and the DHS Chief Information Officer to ensure
            include all testing, approval, and implementation      that Coast Guard Headquarters completes, in a
            documentation for all scripts (Condition #7); and      timely manner, the corrective actions to:
                                                                   � Continue to update script policies and
          � Coast  Guard has not completed                             procedures to include clear guidance over
            documentation for all scripts executed since their         module lead approvers, testing and
            implementation (Condition #8).                             documentation requirements, monitoring/audit
        Additionally, although Coast Guard did conduct an              log    reviews,    and     blanket    approval
        examination with an external contractor organization,          requirements.
        we have determined that the analysis was incomplete.       �   Finalize and implement policies and
        Specifically, due to the many limitations over scope, it       procedures governing the script change control
        did not consider the full population of scripts run at         process including completing records within
                   currently or since the inception of     .           the                            for all executed
        Furthermore, the analysis did not properly evaluate            scripts and ensuring that all scripts are tested
        scripts as to financial statement impact, including            in an appropriate test environment prior to
        current versus prior year effect (Condition #9)                being put into production.
                                                                   Regarding the actual scripts themselves, TSA
                                                                   should work with the DHS Chief Financial Officer
                                                                   and the DHS Chief Information Officer to ensure
                                                                   that Coast Guard Headquarters completes, in a
                                                                   timely manner, the corrective actions to:
                                                                   � Determine the root causes and specific
                                                                       detailed actions necessary to correct the
                                                                       conditions that resulted in scripts, for the total
                                                                       population of scripts run at             in order
                                                                       to develop system upgrades that would
                                                                       eliminate the use of some of the scripts.
                                                                   �    Continue efforts to complete an in-depth
                                                                        analysis of active scripts, with the following

                                                                       18
               Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                                                                         Appendix B 

                                                     Department of Homeland Security 

                                                  Transportation Security Administration

                                                 Information Technology Management Letter
                                                            September 30, 2008

                                                                                                                                         Repeat    Risk
NFR #                            Condition                                            Recommendation                         New Issue
                                                                                                                                          Issue   Rating*
                                                                         objectives:
                                                                          o All changes to active scripts and new
                                                                            scripts should be subject to an appropriate
                                                                            software change control process to include
                                                                            testing, reviews, and approvals.
                                                                          o All active scripts should be reviewed for
                                                                            impact on financial statement balances.
IT-08-24   Although Coast Guard Headquarters is in the process       We recommend that TSA work with the DHS                               X      Medium
           of completing background investigations for all           Chief Information Officer to ensure that Coast
           civilian employees, this has not been completed.          Guard Headquarters' completes, in a timely
           Additionally, Coast Guard has set its position            manner, the following planned corrective actions:
           sensitivity designations to Low for the majority of its
           employees. However, DHS requires position                 �    Perform the initial background investigations
           sensitivity designations no less than Moderate which           and re-investigations for civilian employees in
           equates to a Minimum Background Check (MBI).                   accordance      with     position    sensitivity
                                                                          designations at no less than the Moderate level
                                                                          as required by DHS directives; and
                                                                     �   Conduct civilian background re-investigations
                                                                         every ten (10) years, as required by DHS
                                                                         directives, to ensure that each employee has a
                                                                         favorably adjudicated and valid MBI
IT-08-26   Although procedures surrounding user access privilege     We recommend that TSA work with the DHS                    X                 Medium
           re-certifications have been developed, we noted that      Chief Information Officer to ensure that the Coast
           the process does not include all           , and          Guard’s            completes, in a timely manner,
                       users and does not involve users’             the planned corrective actions to:
           supervisors as required by DHS Sensitive System           � Implement and document the             user
           Policy Directive 4300A. Additionally, we noted that           access review procedures to include all
           AAR forms are not being completed for all users on a          access privileges and include supervisors in
           consistent basis and we identified instances where            each review.
           system access was granted prior to the AAR approval
           by a supervisor.                                          �    Update procedures to ensure that a
                                                                          documented and approved access
                                                                          authorization request is completed for each
                                                                          individual prior to granting him/her access to
                                                                          the             and             applications or

                                                                         19
                  Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                                                                            Appendix B
                                                         Department of Homeland Security
                                                      Transportation Security Administration
                                                     Information Technology Management Letter
                                                                September 30, 2008

                                                                                                                                            Repeat    Risk
      NFR #                           Condition                                            Recommendation                       New Issue
                                                                                                                                             Issue   Rating*
                                                                              databases.




     IT-08-27   Although TSA has implemented quarterly access             We recommend that TSA update the                         X                 Medium
                reviews for                user accounts and identified   and       Site Administrator User and Role 

                accounts with elevated privileges, TSA has not 
          Quarterly Review Process to include procedures 

                ensured that the 
              accounts with an          surrounding the recertification of accounts with 

                increased risk associated with them are 
                 elevated privileges on the Unit Approved Plan. In 

                reviewed/authorized on a periodic basis by a 
            addition, the recertification process should be 

                supervisor. 
                                             documented, include supervisor written approval
                                                                          and occur on an at least annual basis.




* Risk ratings are only intended to assist management in prioritizing corrective actions. Risk ratings in this context do not correlate to
definitions of control deficiencies as identified by the AICPA.




                                                                            20
                       Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                            Appendix C 


                           Department of Homeland Security 

                        Transportation Security Administration

                       Information Technology Management Letter
                                  September 30, 2008




                                  Appendix C 


Status of Prior Year Notices of Findings and Recommendations 

                     And Comparison To

   Current Year Notices of Findings and Recommendations 





Status of Prior Year Notices of Findings and Recommendations and Comparison To


                                         22
Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                                      Appendix C 


                                     Department of Homeland Security 

                                  Transportation Security Administration

                                 Information Technology Management Letter
                                            September 30, 2008

                 Current Year Notices of Findings and Recommendations at TSA
                                                                                                         Disposition
NFR No.            Description                                                                     Closed         Repeat

 TSA- IT-07-01      The disaster recovery aspect of the COOP will be completed by                                  08-01
                    September 30, 2007 with the business continuity and continuity of
                    government aspects of the COOP not being completed until
                    December 2007. Because the COOP is in draft form, it has not yet
                    been tested; however,                plans to test the entire COOP prior to
                    it being implemented. Lastly, the                 has drafted a
                    memorandum of understanding (MOU) with the
                                     for reciprocal services; however, the MOU is currently
                    in draft form.
 TSA- IT-07-02                 is in the process of developing of a Continuity of                    X
                    Operations Plan (COOP) which addresses disaster recovery, business
                    continuity and continuity of government for                   . The disaster
                    recovery aspect of the COOP will be completed by September 30,
                    2007 with the business continuity and continuity of government
                    aspects of the COOP not being completed until December 2007.
                    Because the COOP is in draft form, it has not yet been tested;
                    however,               plans to test the entire COOP prior to it being
                    implemented. Lastly, the                 has drafted a MOU with the
                    for reciprocal services; however, the MOU is currently in draft form.


 TSA-IT-07-03       The contract that CG HQ has with the              and                                          08-03
                    software vendor does not include security configuration
                    requirements that must be adhered to during the configuration
                    management process. Consequently,                and
                    builds and maintenance packs may not be configured and
                    implemented with comprehensive security configuration
                    requirements. CG recognizes the absence of security requirements
                    and indicated that the contract with the vendor will be reassessed in
                    2008 during the contract renewal process with CG HQ and
                    corrective actions will be taken at that time.
 TSA-IT-07-04       19 individuals, specified below, had 24 hour a day access to the data            X
                    center and had not yet completed the training:
                    - 13 individuals (building owners, property managers and their
                    respective contractors);
                    - 4 members of            Senior Management; and
                    - 2 security guards.

                    Lastly, we identified four employees, each with 24 hour access to the
                    data center that had not yet completed the training as of July 2007.
                    Upon notifying            of this exception, the four
                    individuals completed the training and
                    provided KPMG with supporting evidence.




                                                          23
  Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                               Appendix C

                                  Department of Homeland Security 

                               Transportation Security Administration

                              Information Technology Management Letter
                                         September 30, 2008

                                                                                                  Disposition
NFR No.         Description                                                                 Closed         Repeat

 TSA-IT-07-05    No formal procedures have been developed or implemented by                                 08-05
                 Coast Guard Headquarters to address DHS requirements surrounding
                 the suitability screening of contractors accessing DHS IT systems.
                 DHS directives and policies require Coast Guard and other DHS
                 components to ensure the completion of background investigations
                 for all contractors accessing IT systems. The type of background
                 investigations should be based on the risk level of their future
                 position at CG and are required to be completed prior to the start of
                 work. However, no CG guidance exists to require CG components
                 to clear their contractors for suitability, especially those with
                 sensitive IT positions.
 TSA-IT-07-06    The IT Security Awareness, Training and Education Plan lacks                               08-06
                 appropriate criteria for defining personnel with significant IT
                 responsibilities. Additionally, the personnel that are defined in the
                 guidance are very limited and do not fully cover the scope of
                 security responsibilities addressed in DHS requirements.
 TSA-IT-07-07    • TSA management did not receive a response from the Federal Air             X
                 Marshalls Service Division                 user base for the May and for
                 the July 2007              review. Therefore, TSA assumed that no
                 response indicated that all roles were appropriate and did not follow-
                 up to ensure that a response was received.
                 • Privileges associated with each user were not included in the May
                 and July 2007 reviews performed.

                 We also noted that the accounts of terminated employees are not
                 removed from the system in a timely manner. Although TSA
                 requested that several of the accounts of terminated individuals be
                 deactivated/end-dated by           , the requests were not submitted
                 to FINCEN until months after the employees departed and we were
                 unable to obtain evidence that these accounts had in fact been
                 deactivated/end-dated.
 TSA-IT-07-08    • The       application and database does not meet the password              X
                 requirements noted in DHS Sensitive System Policy Directive
                 4300A.
                 •      accounts of terminated individuals are not removed in a
                 timely manner including one individual who had user account
                 management capabilities within the system.
                 •      application and database accounts are not being reviewed for
                 appropriateness.




                                                     24
  Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                                Appendix C 


                                    Department of Homeland Security 

                                 Transportation Security Administration

                                Information Technology Management Letter
                                           September 30, 2008

                                                                                                   Disposition
NFR No.           Description                                                                Closed         Repeat

 TSA-IT-07-09      • We were unable to obtain a copy of the       password                     X
                   configuration. However, we performed a
                   demonstration/walkthrough of the password with a             point of
                   contact and were able to determine that the password configuration
                   is not in compliance with DHS guidance.
                   • Although the      system has been configured to track and lock
                   accounts that have not been utilized in 90 days, DHS guidance
                   requires that accounts that have not been used in 30 days be
                   deactivated.
 TSA-IT-07-10      An excessive number of individuals had user administration                  X
                   capabilities within FPD until the implementation of the centralized
                   user management (August 19, 2007). We also noted the existence of
                   two shared generic accounts with this privilege:
                   and                       . These accounts have every privilege within
                   the application, including the ability to create/delete/modify user
                   accounts within         .
 TSA-IT-07-11      • Accounts of terminated employees and contractors are not removed          X
                   from the system in a timely manner. Specifically, accounts of
                   terminated employees and contractors have not been end-dated and
                   accounts of terminated employees and contractors were not end-
                   dated until months after their departure.
                   •       periodic account reviews are not being performed to ensure
                   that all users are current employees or contractors and that their
                   privileges are still required to perform their job functions.
                   • Three of 15 Financial Systems Access Request Forms were not
                   completed in their entirety. Specifically, the three forms did not
                   contain the privileges that each user was to be granted within the
                   system.
 TSA-IT-07-12 
    The accounts of terminated contractors are not end-dated or disabled        X
                   in a timely manner. Additionally, we noted that TSA has not
                   developed policies or procedures that require a periodic review of
                          application and database accounts, and their associated
                   privileges, be performed to determine that access is appropriate.
 TSA-IT-07-13 
    Management had not adequately completed the              Certification                    08-13 

                   and Accreditation (C&A) package to include the                  system.
                   Specifically,              management stated that Sunflower is a
                   subsystem of          and a separate C&A does not need to be
                   completed since it is covered by the         C&A Package. However,
                   we determined that there is no documentation within the
                   System Security Plan that defines                as a subsystem and
                   specifically addresses the appropriate security controls for
                   in this capacity.
 TSA-IT-07-14                          systems have been configured to automatically           X
                   end date accounts that have not been used in six months; however,
                   DHS guidance requires accounts that have been inactive for 30 days
                   be disabled.


                                                       25
  Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                             Appendix C

                                  Department of Homeland Security 

                               Transportation Security Administration

                              Information Technology Management Letter
                                         September 30, 2008

                                                                                                Disposition
NFR No.         Description                                                               Closed         Repeat

 TSA-IT-07-15    The policies and procedures over a formalized sanctioning process                        08-15
                 have not been fully developed and implemented. Specifically, the
                 policies and procedures do not include consequences for individuals
                 who do not sign the computer access agreements or complete initial
                 or refresher security awareness training. Furthermore, out of the
                 nine individuals selected, only one had completed a Computer
                 Access Agreement.

                 Additionally, we determined that TSA allows individuals to
                 complete security awareness training within sixty days of beginning
                 work and gaining access to their         and application accounts.
                 However DHS guidance requires that all individuals complete
                 security awareness training prior to gaining access to the Information
                 systems. Furthermore, out of the selection of nine individuals, one
                 contractor had not completed initial security awareness training this
                 fiscal year and a second employee had not completed their refresher
                 training for this fiscal year.
 TSA-IT-07-16    Procedures are not formally documented requiring the review of the         X
                 activities of the        system administrators. We also noted that
                 reviews of the audit logs that document the actions of
                 administrators in the            operating environment are not being
                 performed.
 TSA-IT-07-17    Procedures are not formally documented identifying how change              X
                 control should be performed when applying system software
                 changes, including software patches, to the          operating system
                 according to a standard schedule or in an emergency situation.
                 While a policy exists, it lacks detailed procedures in order to be
                 effective.
 TSA-IT-07-18    Configuration management weaknesses continue to exist on hosts                           08-18
                 supporting the               and            applications and the     .

                 Note: See the tables in the NFR for the specific conditions.
 TSA-IT-07-19    Patch management weaknesses continue to exist on hosts supporting                        08-19
                 the           and             applications and the      .

                 Note: See the tables in the NFR for the specific conditions.




                                                    26
  Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                               Appendix C 


                                  Department of Homeland Security 

                               Transportation Security Administration

                              Information Technology Management Letter
                                         September 30, 2008

                                                                                                Disposition
NFR No.         Description                                                                 Closed       Repeat

 TSA-IT-07-20    Implementation of the formalized exit process for TSA personnel                          08-20
                 policies and procedures has not been fully executed. Specifically,
                 only eleven (11) out of a selection of thirty (30) TSA 1402 Forms,
                 the Separating Non-Screener Employee and Contractor IT
                 Certificates, were received. Additionally, of the eleven received,
                 seven (7) of the forms did not have the appropriate TSA
                 application(s) identified in order to deactivate the separating
                 employee’s accounts.

                 Furthermore, we selected thirty (30) TSA 1163 forms, the Employee
                 Exit Clearance form, for both contractors and TSA personnel and
                 only received nine (9) completed forms. The purpose of the 1163
                 form is to document sign-offs for access removal of financial and
                 related administrative system accounts for applications such as
                                         access to the Intranet.
 TSA-IT-07-21    1. TSA has not fully documented policies and procedures                                  08-21
                 surrounding the change control process for          to define the
                 overlap in the responsibilities between TSA and               or
                 guidance for ensuring that changes that are passed/deferred to
                            are tested and operate appropriately prior to approval by
                 TSA and implementation into production.
                 2. Additionally, TSA does not consistently retain documentation
                 associated with the                   changes.
                 3. Policies and procedures for the emergency change control process
                 are not documented.
 TSA-IT-07-22               has not fully developed and implemented their policies and                    08-22
                 procedures for the change control and emergency change control
                 process to guide staff in the implementation of this process at
                           . Specifically, we noted that the policies and procedures
                 remain at a high-level and to do not include requirements for who is
                 responsible for the initial approvals of the changes proposed by the
                 vendor, including technical changes, the testing plan requirements
                 for each phase of testing                               and the capacity
                 in which             is involved, and the final approval of all changes
                 to the system. Instead, the procedures detail the overall process and
                 phases for               and             change control, but lack
                 detailed guidance for the roles and responsibilities executed by
                            personnel.

                 Additionally, we noted that           follows the same change
                 control process for emergency changes. However, the details
                 surrounding that emergency change control process are not formally
                 documented in the             procedures for            and
                            . For example, requirements for the categorization of
                 priority levels and response time requirements for each priority level
                 are not included.



                                                     27
  Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                              Appendix C 


                                  Department of Homeland Security 

                               Transportation Security Administration

                              Information Technology Management Letter
                                         September 30, 2008

                                                                                               Disposition
NFR No.         Description                                                                Closed       Repeat

                 Furthermore,           has not fully implemented the procedures
                 documented in the                           System Change
                 Procedures. Specifically, we noted that
                           were not completed for changes made to the        suite as
                 of June 2006.

                 Upon review of a selection of changes, we determined that
                 is not consistently retaining documentation to support the change
                 control and emergency change control process. Specifically, we
                 inspected documentation associated with 30                and
                              system changes and emergency changes and determined
                 that various pieces of supporting documentation (i.e., functional
                 resolution documents, test plans for the different phases of testing,
                 evidence of testing, and approvals) were insufficient and/or not
                 available for all 30 of the changes and emergency changes selected
                 for testing.
 TSA-IT-07-23    Coast Guard change controls related to Coast Guard and TSA                              08-23
                 financial systems are not appropriately designed, operating
                 effectively or in compliance with Office of Management and Budget
                 Circular No. A-130, Security of Federal Automated Information
                 Resources, the DHS Sensitive System Policy Directive 4300A and
                 the National Institute of Standards and Technology Special
                 Publications. Coast Guard has and continues to operate a separate,
                 informal and largely undocumented change development and
                 implementation process effecting Coast Guard and TSA Financial
                 Systems, outside of and conflicting with the formal change control
                 process. Coast Guard is unable to provide a complete population of
                 implemented scripts, to include the type, purpose and intended effect
                 on both CG and TSA financial data. The implemented process is
                 ineffective as the approval, testing and documentation procedures of
                 the script changes are not appropriately designed and the current
                 process is ineffective to control the intended and actual effect on
                 TSA financial data. Coast Guard has only eliminated a small
                 number of the scripts used on a consistent basis and is projecting that
                 this approach will continue into the delivery of           and beyond.

 TSA-IT-07-24    Civilian background investigations and reinvestigations are not                         08-24
                 being performed in accordance with DHS guidance. Specifically,
                 sixteen (16) out of twenty (20) individual background investigations
                 reviewed did not meet the DHS minimum standard of investigation
                 of an MBI per DHS Sensitive System Policy Directive 4300A.

                 Furthermore, upon review of a selection of five (5) civilian
                 personnel, one (1) individual had an investigation that had not been
                 adjudicated since 1988. DHS guidance requires that civilian
                 personnel are reinvestigated every ten (10) years.



                                                     28
  Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                                            Appendix C

                                  Department of Homeland Security 

                               Transportation Security Administration

                              Information Technology Management Letter
                                         September 30, 2008

                                                                                               Disposition
NFR No.         Description                                                              Closed         Repeat

 TSA-IT-07-25    TSA has not taken corrective actions to develop and implement TSA         X
                 specific change control policies and procedures for the TSA
                             change control or emergency change control process.
                 Furthermore, upon review of a selection of changes, we determined
                 that TSA is not consistently implementing the change control
                 process. Specifically, we inspected documentation associated with
                 seven              system changes and emergency changes and
                 determined that supporting documentation (i.e., test plans, evidence
                 of testing, and approvals to move the change into production) were
                 not available for all seven of the changes and emergency changes
                 selected for testing.

                 Additionally, KPMG noted that testing was not fully completed by
                 TSA prior to passing the change for testing for three of the changes.




                                                    29
  Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                            Appendix D 


                           Department of Homeland Security 

                        Transportation Security Administration

                       Information Technology Management Letter
                                  September 30, 2008




                                   Appendix D 


                            Management Comments 





                                         30
Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                            Appendix D 


                           Department of Homeland Security 

                        Transportation Security Administration

                       Information Technology Management Letter
                                  September 30, 2008




                                         31
Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                                                                            Appendix D 


                           Department of Homeland Security 

                        Transportation Security Administration

                       Information Technology Management Letter
                                  September 30, 2008




                                         32
Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit
                            Department of Homeland Security 

                         Transportation Security Administration

                        Information Technology Management Letter
                                   September 30, 2008

                    Report Distribution

                    Department of Homeland Security

                    Secretary
                    Deputy Secretary
                    Chief of Staff for Policy
                    Chief of Staff for Operations
                    Acting General Counsel
                    Executive Secretariat
                    Under Secretary, Management
                    Acting Assistant Commissioner, TSA
                    DHS Chief Information Officer
                    DHS Chief Financial Officer
                    Chief Financial Officer, TSA
                    Acting Chief Information Officer, TSA
                    Chief Information Security Officer
                    Assistant Secretary for Policy
                    Assistant Secretary for Public Affairs
                    Assistant Secretary for Office of Legislative Affairs
                    DHS GAO OIG Audit Liaison
                    Chief Information Officer, Audit Liaison
                    TSA Audit Liaison

                    Office of Management and Budget

                    Chief, Homeland Security Branch
                    DHS OIG Budget Examiner

                    Congress

                    Congressional Oversight and Appropriations Committees as
                    Appropriate




                                           33

Information Technology Management Letter for the FY 2008 TSA Financial Statement Audit 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
